 Department of Health and Human Services

ADM NITRATION    ON AGING

            AND

         OFFICE OF

   INSPECTOR GENERAL





  ACTION PIAN TO S1”RENGTHEN
   IMPLEMENTATION OF TITLE Ill
  OF THE OLDER AMERICANS ACT




            APRIL 1993   OEI-02-91-01517

              EXECUTIVE                        SUMMARY
BACKGROUND

This report summarizes the findings of a review of States’ implementation of Title III
of The Older Americans Act (OAA) and sets forth an action plan for the
Administration on Aging (AoA).

In the summer of 1992, a joint AoA/Office of Inspector General (OIG) review team
conducted compliance reviews of States’ implementation of Title III. AoA initiated
these reviews to strengthen its stewardship of the OAA and to provide the
Commissioner with up-to-date information on implementation of Title III. In April
1993, AoA and OIG issued five reports on the reviews, focusing on the stewardship,
targeting, ombudsman, nutrition, and financial management requirements of Title III.

SUMMARY OF FINDINGS

The compliance reviews found that States are generally successful in making area
agencies aware of the requirements of Title III. They are, however, less successful in
assessing area agency compliance. In some instances key requirements of the OAA
were missing from assessment instruments. Additionally, only one-third of the States
conduct annual, on-site assessments of area agencies. States report that they are
seeking clearer and more comprehensive guidance on many requirements of the O/L%,
as well as more skills training and information about “best practices.”


ACTION PLAN

AoA has prepared this action plan to address weaknesses identified in the reviews and
to strengthen the capacity of State and area agencies to provide services to older
individuals. It has three parts -- technical assistance, training, and review.

       Technical assistancewill consist of the development of a system for, and
       dissemination of, policy issuances and technical information.

       Training for State agencies will be based upon a survey of State needs and will
       employ a strategy to use regional office staff and Title IV program resources to
       meet identified needs.

       Reviews will become a regular part of AoA stewardship with State self-
       assessments in 1993 and full AoA reviews of States in 1994.




                                           i
                           TABLE                        OF CONTENTS

EXECUTIVESUMMARY                               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .=....i


INTRODUCTION
           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...==                            .......-1


SUMMARY OF FINDINGS


     Stewardship          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...=....              3

     Targeting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .= . ...=..                    3

     Ombudsman              .................................................. 4

     Nutrition      �   ������      �   �   �����    �������       �������       �������      �   ������    �   ������      �   ���   4

     Financial Management                     ........................................... 5


ACTION PLAN


     Technical Assistance                   ............................................ 6

     Training . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

     Review       ...................................................... 7

    Action Plan Timetable                     ........................................... 9
                         INTRODUCTION

BACKGROUND

In the summer of 1992 the Administration on Aging (AoA) and Office of Inspector
General (OIG) conducted reviews of State Units on Aging’s (SUA) implementation of
Title III of the Older Americans Act (OAA). AoA initiated these reviews to
strengthen its stewardship of the OAA and to provide the Commissioner with up-to-
date information on the implementation of Title III. The reviews focused on SUAs
responsibility for stewardship, targeting, ombudsman, nutrition, and financial
management requirements of Title III. AoA and OIG jointly published five reports in
April 1993 which contain the findings from the reviews. Based on those findings AoA
plans to undertake a number of actions which are outlined in this plan.

Under the 0~       the AoA serves as the principle Federal advocate for older
individuals and monitors SUA implementation of Title III. Through Title III, AoA
encourages and assists SUAs and area agencies on aging (AAAs) to implement a
system of community-based services to prevent the premature institutionalization of
older individuals. In FY 1992, AoA distributed approximately $787 million in formula
grants to States based on the population 60 years and older within each State. The
SUAs use 5 percent of the grant on administration and fund AAAs who, in turn,
contract for the supportive services, nutrition services and multipurpose senior centers.

However, AoA’s capacity to carry out its stewardship responsibilities declined
substantially during the 1980’s due to a significant reduction in resources. More
specifically, AoA sustained a 47 percent reduction in staff and a 75 percent reduction
in travel funds. (Each regional office had only $2,000 annually for travel.) These
reductions limited AoA’s ability to effectively monitor SUA’S implementation of Title
III.


METHODOLOGY

The stratified, random sample of 20 States was based upon the population of
individuals age 60 and older in each State. These are the same data used to allocate
Title III funds among States. In the sampling process, we first divided States into four
strata based upon the number of older individuals in each State and then selected five
States from each stratum. This sample permits us to generalize findings from the 20
sample States to the nation. We also used sampling techniques during site visits to
each State for the reviews of specific area plans, assessments, and audits.

The data collection was conducted in two phases -- an AoA Regional Office desk
review and an on-site review at the SUA. In the desk reviews, we reviewed sample
SUAs’ guidance to, and assessment instruments for, AAAs. We also reviewed their
program participation data and waiver requests. During the site visits, we interviewed


                                            1
SUA staff on their implementation of the requirements of Title III, and reviewed
samples of area plans, assessment reports, and audits. Data from reviews are
weighted to reflect the sampling plan so that the percentages in the five reports
represent the nation.




                                           2
               SUMMARY                    OF FINDINGS

STEWARDSHIP

Stewardship is the States’ process of directing and monitoring AA% A key part of
that process, the area planning process, works well for those SUAS using it to
implement State as well as Federal initiatives. However, the requirements for
coordinating with mental health and long term care facilities, and for conducting
annual evaluations of outreach are often not addressed. Further, these same three
criteria were often missing from assessment instruments. More importantly, one-third
of SUAS do not conduct annual, on-site assessments of AAAs. Some of these SUAS
want to, but can not because of resources limitations; others were unclear about this
requirement.

Only half of the SUAS reported that all AAAs conduct the required evaluation of
outreach. This is probably due to the lack of guidance and assessment from the
SUAS. Further, authorized waivers for AAA services are common, but do not always
follow required procedures established by AoA.

SUAS provide training and technical assistance to AAAs to address noted deficiencies.
This assistance most frequently focuses on planning, monitoring, reporting, and
financial management. They note that AA/k still have unmet needs and States are
seeking training and technical assistance from Ao/& including clearer guidance on
program requirements and technical assistance on monitoring, data collection, cost
sharing, and managing with declining resources.


TARGETING

Virtually all SUAS conduct targeting activities to identify and serve individuals with the

greatest economic or social need. These activities most frequently include

coordinating with other organizations and conducting conferences and meetings. They

also include providing guidance and technical assistance to AAAs and monitoring their

targeting efforts. Half of SUAS have established program participation goals for

AAAs. Only one-quarter of SUAS have altered their intra-state funding formula,

despite AoA’s efforts to promote it as a useful targeting technique.


AAA targeting activities most often include outreach, specialized services, and site and

provider selection. However, there are weaknesses in implementing the requirements

for evaluating the effectiveness of outreach, and for identifjhg areas with substantial

numbers of older individuals with limited English-speaking ability. Also, there are
little data to document the effect of targeting initiatives.

SUAS note that targeting causes them to attempt to increase services to selected
populations in a period of level funding. Accordingly, they are seeking guidance and


                                             3
technical assistance from AoA. In particular, they want to learn about “best practices”
and to obtain better data on low-income populations.


OMBUDSMAN

While States have similarly structured their offices of ombudsman, their staffing varies
greatly. Most ombudsmen are located in the same agency as the SU~ use sub-state
offices, and are authorized by State law. However, professional staffing range from 1
to over 130 and volunteers range from 3 to 1,300. Most often professional staffing is
directly proportional to the population of older individuals; this is not so for
volunteers. One-fifth of States do not use volunteers because State law precludes
them or because SUAS and AAAs doubt the abilities of volunteers.

Ombudsmen are generally successful in meeting the requirements of the OAA. Most
have the authority needed to carry out all their responsibilities and have coordinated
their activities with other agencies, as required. Half the ombudsmen visit all of their
nursing homes annually, while most of the others visit at least 70 percent of them.
Virtually all ombudsmen include licensed board and care facilities in their visitation
program. About one-third report problems in getting adequate legal counsel.


NUTRITION

While States have been generally successful in implementing the nutrition

requirements of the O% some weaknesses were noted in the SUAS’ guidance to and

assessments of AAAs. The weaknesses are eligibility criteria for home-delivered

meals, the requirements for use of USDA’S cash/commodity option, and the provision

of nutrition related services other than meals.


Virtually all States assess performance of AAAs’ nutrition programs, but only 56

percent of these report that they conduct the assessments annually. Individuals who

perform assessments of the nutrition program have a range of expertise and

qualifications; a registered dietitian or individual with dietetic qualifications or

education is used by 58 percent of the States. Through the assessment process, States

identified inadequate staff, lack of resources, and sanitation problems as the most

common problems faced by the nutrition programs. All States have procedures to act

on deficiencies identified by assessments.


The majority of States provide technical assistance or training to address deficiencies

identified in AAA assessments. The subjects ranged from management and

administration procedure training to meals related issues such as preparation and

other nutrition services such as nutrition education. Further, many States seek to

control nutrition program costs and utilize a variety of methods to help reduce costs of

required or nece;sa~ services, to improve access to services, or to improve or increase

services. States also discussed their reasons for choosing the USDA options for cash



                                            4
and/or commodities. In general the reason for choosing commodities is the bonus
items, however for some States the problems of storage, transportation or lack of
variety, make choosing commodities less desirable.


FINANCIAL MANAGEMENT

While SUAs are meeting a majority of financial management requirements, some
vulnerabilities exist. Three-fifths of SUAS do not include in their assessment standards
the limits on AAA administrative expenditures. Yet, only four percent spend more
than the authorized amount for SUA or A&4 administration. We also found that
most SUAS lack proper documentation on rural expenditures, and that one-fifth
exceed limits for program development and coordination.

SUAS have implemented audit requirements. They require grantees to budget for
audits and to submit completed audits to the SUA. SUAS have follow-up procedures
to address weaknesses identified in audits and they provide training and technical
assistance to address deficiencies. The most common deficiencies are weaknesses in
internal controls and accounting. SUAS also requested training and technical
assistance from AoA on federal requirements and audits.




                                            5
                           ACTION               PLAN

State and area agencies on aging have been generally successful in implementing the
requirements of Title III. However, the AoA/OIG review of SUAS has identified
weaknesses in States’ implementation.      AoA has made SUAS aware of these
weaknesses. In order to take corrective action, SUAS are seeking technical assistance
and training from AoA. More specifically, the States want clearer and more
comprehensive guidance on many requirements of the OAA and related federal laws
and regulations, as well as on skills training and information about “best practices.”

AoA has prepared this action plan to address those SUA and AAA needs. The action
plan is intended to strengthen the capacity of SUAS and AAAs to provide services to
older individuals. The plan identifies three areas -- technical assistance, training, and
review -- which will be the primary focus of this capacity-building initiative. As a
result of this effort, AoA will increase its direct guidance to States on the OAA and
related laws and regulations; provide additional training in key programmatic and skill
areas; and conduct periodic, standardized reviews of SUA and AAA implementation
of Title III and the new Title VII programs.


TECHNICAL ASSISTANCE

In the course of the reviews AoA noted varying State interpretations and
implementation of the OAA and related regulations. In response, SUAS requested
that AoA provide clarification and definition of specific Federal requirements in a
more timely manner. Currently, AoA issues Program Instructions (PI) when it
believes there is a need to clarify a point of law or to initiate a new policy. At this
time, AoA does not have a system that allows for archiving and subject-area retrieval.
Accordingly, AoA will strengthen its system for providing guidance to SUAS.

AoA will strengthen its formal guidance to SUAS and AAAs by instituting the
following:

�
       Policy Archiving and Subject-Area Retrieval System. AoA will issue a one-time
       compilation of responses to specific needs for policy clarification identified in
       the course of the AoA/OIG review. In addition, AoA will develop a policy
       archiving and subject area retrieval system.

 �
       Disseminationof Policy Issuancesand Technical Information. A compendium
       of PIs and Informational Memoranda will be widely disseminated and updated
       semi-annually. Most issuances will have automatic expiration dates. Also, AoA
       will explore additional methods of dissemination, such as a national electronic
       bulletin board or other electronic communications systems.




                                            6
*     Prompt Response to Requests for Policy Clarification. AoA will respond to
      most requests for policy clarification within 30 days. The majority of responses
      will most likely address State-specific issues. However, if AoA believes that the
      issue has national significance, it will issue a Program Instruction.

�
      Pro posals for Amendments to EliminateOutdated or Ineffective Requirements
      of The OAA. When AoA notices, or when SUAS or AAAs bring to its
      attention, contradictory language which affects implementation of the program,
      AoA will seek an amendment or provide a clarifying regulation. A frequently
      cited example from the reviews is the requirement that current expenditures in
      rural areas exceed 105 percent of the 1978 expenditures.


TRAINING

In the course of the reviews AoA noted that SUAS lacked selected skills needed to
carry out requirements of the OAA. Many SUAS agreed and noted that AAAs also
need skills training. AoA/OIG staff, along with the SUAS, identified a number of key
skill areas during the review process. These areas include accounting, financial
management, assessment, reporting, and contracting. Examples of training needs for
programmatic areas included targeting, cost-sharing and managing voluntary
contributions, obtaining adequate legal counsel for ombudsmen, recruiting and
managing volunteers, and nutrition program issues.

AoA will strengthen its commitment to provide training to the network by undertaking
the following:

�
      Surveyof States.The survey will ask SUAS to identify key administrative    and
      programmatic skills needed to implement the OAA.

�
      TrainingStrategy. This strategy will include the developing a priority listing of
      training needs, identifying appropriate training approaches, and identifying of
      knowledgeable and skilled individuals to conduct the training. AoA
      headquarters and regional staff, as well as Title IV Discretionary Program
      resources, will be used to implement this strategy. Additionally, AoA will
      conduct special training on the implementing regulations for the 1992
      Amendments within 90 days of the final rule.


REVIEW

The AoA/OIG reviews provided up-to-date and reliable information on State
compliance with requirements of the Act. They also found that States were unclear
about AoA’s expectations in a variety of program activities and, therefore, failed to
address some requirements of the OAA. Accordingly, AoA will continue to conduct
regular reviews of the implementation of Title III and the new Title VII.


                                           7
Future reviews will use the tools developed for this initiative. AoA will use
standardized instruments and a process that will include pre-testing. The instruments
will be published and made available to SUAS in advance of site visits. Baseline
reviews will be conducted in all States, and subsequent reviews will focus on specific
problem areas.

In 1993, AoA will take the following two steps:

�
       State Self-Assessments. During the spring of 1993, AoA will ask all States that
       did not participate in the 1992 reviews to self-assess. Regional offices will
       conduct follow-up site visits to clarify information and to discuss weaknesses.

�
       1994 Reviews. AoA will modi~ the review instruments to include changes in
       requirements as a result of the implementation of the 1992 Amendments, and
       will conduct reviews in the spring of 1994.




                                            8
                                                                         DUE DAm
AC-




Technical Assistance

�                    Implement a policy archiving and               July 1993
                      subject area retrieval system

 �                   Disseminate compendium of policy               July 1993
                      issuances and technical information

    �                Implement system to respond to requests
                      for policy clarification within 30 days       April 19%
                      of receipt

     �
                     Implement policy to seek amendments to
                      eliminate outdated or ineffective              July 1993
                      requirements of the OM

     Training
                                                                     September     1993
         �            Conduct a survey of States training needs
                                                                     December      1993
         �            Complete training strategy

         �            Conduct training on regulations within
                       90 days of final rule

         Reviews

             �         Issue copy of State assessment                 April 1993
                        instrument to all other States

             �         Complete regional office follow-up to          October 1993
                        State self-assessments
                                                                      December      1993
                 �      Issue AoA 1994 assessment guidance
                                                                       January - August 1994
                 �      Conduct 1994 reviews
                                                                       December     1994
                 �      Report of 1994 review




                                                               9

